2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.

JESUS VASQUEZ, JR. AND
PENNEY LEIGH VASQUEZ,
Petitioners,

Mi

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

WILMINGTON SAVINGS FUND SOCIETY, FSB,
AS TRUSTEE OF STANWICH MORTGAGE TRUST F,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF

CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8258 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of July, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepse. 0. Last

Notary Public

ji GENERAL NOTARY-State of Nebraska
RENEE J. GOSS:
marelicheme My Comm. Exp. September 5, 2023

Qudiow-h, Chk

Affiant 41120
